HHS/OIG, Audit -"State of Ohio's Efforts to Account for and Monitor Sub-Recipient's Use of Bioterrorism Hospital Preparedness Program Funds,"(A-05-03-00078)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"State of Ohio's Efforts to Account for and Monitor Sub-Recipient's Use of Bioterrorism Hospital Preparedness Program
Funds," (A-05-03-00078)
September 19, 2003
Complete
Text of Report is available in PDF format
(296 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether the Ohio Department of Health (State agency): (i) properly
recorded, summarized and reported bioterrorism preparedness transactions in accordance with the terms and conditions of
the cooperative agreements and (ii) whether the State Agency has established controls and procedures to monitor sub-recipient
expenditures of HRSA funds. Based on our validation of a questionnaire completed by the State agency and our site visit,
we determined that the State agency generally accounted for program funds in accordance with the terms and conditions of
the cooperative agreement. However, the State agency did not segregate expenditures by phase, within phase, or by priority
area. In response to our inquiry as to whether the State agency reduced funding to existing public health programs, State
agency officials replied that Program funding had not been used to supplant existing State or local programs. We recommended
that the State agency: (i) segregate expenditures by phase, within phase, and by priority area, and (ii) implement the
site visit component and address problem areas, as they are identified. The State agency concurred with our findings and
recommendations.